GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

March 17, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543

Re: No. 20-1223, Johnson & Johnson v. Ingham
Dear Mr. Harris,
I am writing on behalf of respondents to request an extension of time in which
to file the opposition to the petition for a writ of certiorari in this case. The petition
was filed on March 2, 2021, and the response is currently due on April 5, 2021. I am
requesting a 30-day extension, through May 5, 2021. An extension of that length will
permit counsel for respondents to review and respond to the petition and is necessary
due to the press of other business before this Court and other courts.
Please let me know if you require any further information. Thank you very
much for your time and assistance.
Very truly yours,

Thomas C. Goldstein

cc: Petitioners’ counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

